TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Appropriate Actions Were Taken to Identify
                     Thousands of Organizations Whose
                 Tax-Exempt Status Had Been Automatically
                  Revoked, but Improvements Are Needed



                                          March 30, 2012

                              Reference Number: 2012-10-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


APPROPRIATE ACTIONS WERE TAKEN                         cases, the IRS appropriately identified
TO IDENTIFY THOUSANDS OF                               organizations that did not file a return or notice
ORGANIZATIONS WHOSE TAX-EXEMPT                         for three consecutive years. However, TIGTA
STATUS HAD BEEN AUTOMATICALLY                          determined that programming changes were
                                                       incomplete and did not potentially identify more
REVOKED, BUT IMPROVEMENTS ARE
                                                       than 15,000 organizations that failed to file for
NEEDED                                                 three consecutive years. As a result, these
                                                       organizations were not informed that their
                                                       tax-exempt status had been automatically
Highlights                                             revoked. In addition, TIGTA identified that
                                                       improvements were needed to 1) provide better
Final Report issued on March 30, 2012                  guidance to organizations that had their
                                                       tax-exempt status automatically revoked and
Highlights of Reference Number: 2012-10-027            2) ensure accurate information is posted to the
to the IRS Acting Commissioner for the Tax             IRS’s taxpayer database.
Exempt and Government Entities Division.
                                                       WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                       Throughout the review, TIGTA raised issues and
The Pension Protection Act of 2006 requires the        the IRS took actions to address them.
IRS to maintain a list of organizations whose          Specifically, programming issues were corrected
tax-exempt status had been automatically                 to ensure identification of organizations that had
revoked for failing to file a return or notice for     their tax-exempt status automatically revoked,
three consecutive years. The Exempt                    guidance provided on an IRS website was
Organizations function educated tax-exempt             updated, and changes were made to an
organizations on the requirements of the Act and       electronic filing website to reduce inaccurate
identified and informed organizations that their       address updates. In addition, TIGTA
tax-exempt status had been automatically               recommended 1) programming changes to more
revoked. However, it did not identify all              accurately identify organizations that did not file
organizations that should have been informed           for three consecutive years, 2) more detailed
about their revocations and did not clearly inform     guidance in the revocation notice, and
organizations on how to regain their tax-exempt        3) programming changes to ensure accurate
status if they were still operating.                   information is posted on the accounts of
                                                       tax-exempt organizations that have terminated
WHY TIGTA DID THE AUDIT
                                                       operations.
This review was requested by the IRS and
                                                       In response to our report, IRS management
addresses the major management challenge of
                                                       agreed with our recommendations and has
Tax Compliance Initiatives. The overall
                                                       already taken corrective actions. Two work
objective was to assess the Exempt
                                                       requests have been submitted to change the
Organizations function’s readiness for and
                                                       programming to more accurately identify
implementation of the provisions of the Pension
                                                       organizations that did not file and to ensure
Protection Act of 2006 related to the automatic
                                                       accounts of tax-exempt organizations are
revocation of an organization’s tax-exempt
                                                       accurate. In addition, a request to update the
status for not filing an annual return or notice for
                                                       automatic revocation notice with additional
three consecutive years.
                                                       guidance has been initiated.
WHAT TIGTA FOUND
The IRS performed extensive outreach and took
actions to prepare for automatic revocations
and, on June 8, 2011, informed more than
279,500 organizations that their tax-exempt
status had been automatically revoked. In most
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 30, 2012


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Appropriate Actions Were Taken to Identify
                                 Thousands of Organizations Whose Tax-Exempt Status Had Been
                                 Automatically Revoked, but Improvements Are Needed
                                 (Audit # 201110014)

 This report presents the results of our review of the Exempt Organizations function’s readiness
 for and implementation of the provisions of the Pension Protection Act of 20061 related to the
 automatic revocation of an organization’s tax-exempt status for not filing an annual return or
 notice for three consecutive years. This review was requested by the Internal Revenue Service,
 is included in our Fiscal Year 2012 Annual Audit Plan, and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.




 1
     Pub. L. No. 109-280, 120 Stat. 780.
                           Appropriate Actions Were Taken to Identify Thousands of
                             Organizations Whose Tax-Exempt Status Had Been
                            Automatically Revoked, but Improvements Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Extensive Outreach Was Performed and Actions Were
          Taken to Prepare for Automatic Revocations, but About
          25,000 Organizations Did Not Receive Reminders to File........................... Page 5
          Generally, the Tax-Exempt Status of Organizations Was
          Appropriately Identified as Revoked, but Computer
          Programming Flaws Were Found ................................................................. Page 7
                    Recommendation 1:........................................................ Page 10

          Guidance Provided to Tax-Exempt Organizations
          Could Be Improved ....................................................................................... Page 10
                    Recommendation 2:........................................................ Page 12

          Some Tax-Exempt Organization Accounts Contain
          Inaccurate Information .................................................................................. Page 12
                    Recommendation 3:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measures............................................................... Page 21
          Appendix V – Outreach Efforts to Educate Tax-Exempt Organizations
          on Their New Filing Requirements............................................................... Page 24
          Appendix VI – Timeline of Events Leading Up to the Initial
          Automatic Revocation Notices ..................................................................... Page 26
          Appendix VII - Management’s Response to the Draft Report ..................... Page 27
        Appropriate Actions Were Taken to Identify Thousands of
          Organizations Whose Tax-Exempt Status Had Been
         Automatically Revoked, but Improvements Are Needed




                    Abbreviations

IRS           Internal Revenue Service
TE/GE         Tax Exempt and Government Entities
                        Appropriate Actions Were Taken to Identify Thousands of
                          Organizations Whose Tax-Exempt Status Had Been
                         Automatically Revoked, but Improvements Are Needed




                                              Background

In Fiscal Year 2006, the Internal Revenue Service (IRS) reported there were approximately
1.6 million tax-exempt organizations (excluding churches)1 holding more than $2.4 trillion in
assets and collecting approximately $1.2 trillion in annual revenues.2 However, the total number
of tax-exempt organizations was unknown because some organizations are not required to notify
the IRS of their existence and terminated organizations did not always notify the IRS they were
no longer in business. Although tax-exempt organizations are exempt from filing and paying
income taxes, the larger organizations with gross receipts of more than $25,000 were required to
file annual information returns on their tax-exempt activities.
To assist the IRS in identifying tax-exempt organizations
that were still active, the Panel on the Nonprofit Sector                      To assist the IRS in identifying
recommended Congress amend Federal tax laws to                                active tax-exempt organizations,
require smaller tax-exempt organizations excused from                        the Panel on the Nonprofit Sector
                                                                              recommended Congress amend
filing an annual information return with the IRS to file an
                                                                            Federal tax laws to require smaller
annual notice containing basic contact and financial                        tax-exempt organizations to file an
information. In addition, the Panel recommended the IRS                        annual notice and suspend the
be authorized to suspend the tax-exempt status of                                tax-exempt status of those
organizations that fail to file the required notification form                organizations that do not file for
                                                                                  three consecutive years.
for three consecutive years.
Some of the Panel’s recommendations became law on
August 17, 2006, when the Pension Protection Act of
20063 was enacted. The Pension Protection Act contains
significant changes to the laws that govern tax-exempt
organizations. Section (§) 1223 mandates that tax-exempt
organizations previously not required to file an annual
information return because their gross receipts were under
a certain amount4 are now required to file certain
information electronically with the IRS. There are no


1
  This includes organizations organized and operated exclusively for religious, charitable, scientific, educational, and
other specified exempt purposes.
2
  Speech Before the Taxation Section of the Bar of Michigan (May 11, 2006) (remarks of Steven T. Miller, former
Commissioner, Tax Exempt and Government Entities Division).
3
  Pub. L. No. 109-280, 120 Stat. 780.
4
  Prior to Tax Year 2010, tax-exempt organizations with gross receipts under $25,000 were not required to file an
information return. Beginning in Tax Year 2010, this amount was raised to $50,000. A tax year is a 12-month
accounting period for keeping records on income and expenses used as the basis for calculating the annual taxes due.
                                                                                                               Page 1
                       Appropriate Actions Were Taken to Identify Thousands of
                         Organizations Whose Tax-Exempt Status Had Been
                        Automatically Revoked, but Improvements Are Needed



monetary penalties for failing to comply with this statute. However, organizations that fail to
provide this information or fail to file an annual information return for three consecutive tax
years will have their tax-exempt status automatically revoked. The Act requires the IRS to
publish and maintain a list of organizations whose tax-exempt status has been automatically
revoked. The first three-year filing deadline that could trigger automatic revocation of
tax-exempt status was May 17, 2010.
To maintain records for all tax-exempt organizations, the IRS uses a computer system known as
the Business Master File (hereafter referred to as the taxpayer database).5 Information from this
database is used to update the list of organizations whose tax-exempt status has been
automatically revoked. Once an organization loses its tax-exempt status, its activities become
taxable and it may be required to file a Federal income tax return (Form 1120, U.S. Corporation
Income Tax Return, or Form 1041, U.S. Income Tax Return for Estates and Trusts).
After conducting an extensive outreach program to notify and assist tax-exempt organizations
that were unaware of the tax law changes and the new filing requirements,6 the IRS announced,
on July 26, 2010, a one-time relief program to bring small tax-exempt organizations back into
compliance. This program extended the Tax Year 2009 filing deadline to October 15, 2010, for
the smallest organizations, those eligible to file the Form 990-N, Electronic Notice (e-Postcard)
for Tax-Exempt Organizations Not Required to File Form 990 or 990-EZ.7 After this initial
extension of time to file, the Tax Exempt and Government Entities (TE/GE) Division proceeded
cautiously before informing organizations that their tax-exempt status had been automatically
revoked.8
The revocation of an organization’s tax-exempt status is effective on the filing due date of the
third consecutive year in which an organization does not file. Once the IRS identifies
organizations whose tax-exempt status has been automatically revoked, it adds them to its list of
organizations who can no longer receive tax deductible contributions. Until the list is published,
taxpayers may continue to make tax deductible contributions to these organizations. If an
organization is still in operation and wishes to regain its tax-exempt status, it must apply to
request its tax-exempt status be reinstated. This is true even if the organization was not
originally required to file an application for tax exemption. An organization may request to have
its date of reinstatement effective retroactive to the date of revocation.9 This request will be


5
  The IRS database that stores various types of taxpayer account information. This database includes business and
employee plans and exempt organizations.
6
  Appendix V contains further details on the outreach efforts taken by the Tax Exempt and Government Entities
Division.
7
  A different relief program was also provided to filers of Form 990-EZ, Short Form Return of Organization Exempt
From Income Tax, with a deadline of October 15, 2010.
8
  See Appendix VI for a timeline of events that led up to the initial notifications of automatic revocations on
June 8, 2011.
9
  Retroactive reinstatement can only be requested for revocations related to not filing for three consecutive years.
                                                                                                            Page 2
                    Appropriate Actions Were Taken to Identify Thousands of
                      Organizations Whose Tax-Exempt Status Had Been
                     Automatically Revoked, but Improvements Are Needed



granted only if the TE/GE Division determines that the organization had reasonable cause for not
filing an annual return or notice for three consecutive years and approves the organization’s
tax-exempt application. However, under a special transitional relief program, the smallest
organizations eligible to file an e-Postcard do not have to prove reasonable cause to receive
retroactive reinstatement. Instead, they must certify that they were eligible to file an e-Postcard
and did not have annual gross receipts of more than $25,000 during the three-year period. Small
organizations requesting this transitional relief must file their requests for retroactive
reinstatement by December 31, 2012.
Throughout our review, we raised issues and the TE/GE Division took actions to address them.
Actions taken by IRS management are noted throughout this report as Management Actions.
This audit was conducted while the computer programming was still being updated. As a result,
this report may not reflect the most current status of the automatic revocation process.
This review was performed at the TE/GE Division offices in Washington, D.C., and
Ogden, Utah, during the period June through September 2011. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                    Appropriate Actions Were Taken to Identify Thousands of
                      Organizations Whose Tax-Exempt Status Had Been
                     Automatically Revoked, but Improvements Are Needed




                                 Results of Review

On June 8, 2011, the IRS identified and informed more than 279,500 organizations that their
tax-exempt status had been automatically revoked for not filing returns or notices with the IRS
for three consecutive years. We found that, in most cases, the IRS appropriately identified
organizations that did not file a return or notice for three consecutive years. However, we
identified several areas where improvements were needed to 1) ensure that all organizations that
did not file for three consecutive years were identified and informed of their automatic
revocations, 2) improve guidance to organizations that had their tax-exempt status revoked, and
3) ensure accurate information is posted to the IRS’s taxpayer database.
The TE/GE Division understood the major impact the Pension Protection Act of 2006 would
have on tax-exempt organizations and performed extensive outreach to notify tax-exempt
organizations of their new filing requirements. Computer programming changes were also
implemented to systemically identify tax-exempt organizations whose tax-exempt status was
automatically revoked. However, these programming changes were incomplete and did not
potentially identify more than 15,000 organizations that failed to file for three consecutive years
and potentially qualified for automatic revocation. As a result, these organizations were not
informed that their tax-exempt status had been automatically revoked. In addition, the
revocation notice used to inform organizations that their tax-exempt status had been
automatically revoked did not include complete guidance on how organizations could regain
their tax-exempt status if they wanted to reapply for tax exemption. Lastly, we identified about
500 tax-exempt organizations whose addresses were inaccurately updated on the IRS’s taxpayer
database and several organizations whose requirements to file were not removed after informing
the IRS that they had ceased operations.
If some organizations that do not file for three consecutive years are not informed their
tax-exempt status has been revoked and account information is not accurate, the Exempt
Organizations function will be treating its customers inconsistently and not ensuring that the
IRS’s taxpayer database includes the most reliable data on the universe of active tax-exempt
organizations. Furthermore, tax-exempt organizations that were automatically revoked may be
confused about the process established for regaining their tax-exempt status due to the lack of
detailed guidance included in the revocation notice mailed to them.




                                                                                             Page 4
                      Appropriate Actions Were Taken to Identify Thousands of
                        Organizations Whose Tax-Exempt Status Had Been
                       Automatically Revoked, but Improvements Are Needed



Extensive Outreach Was Performed and Actions Were Taken to
Prepare for Automatic Revocations, but About 25,000 Organizations
Did Not Receive Reminders to File
The TE/GE Division prepared for the impact of the new filing requirements in the Pension
Protection Act of 2006 by communicating new requirements to the tax-exempt community,
educating its employees regarding the new law, issuing notices to tax-exempt organizations, and
developing guidance for organizations whose tax-exempt status was revoked.
        Communicating new requirements to the tax-exempt community – Initial notices
         were issued in Calendar Year 2007 to hundreds of thousands of tax-exempt organizations
         informing them of the new filing requirements. We previously reviewed this initial effort
         and found that, overall, the IRS identified the tax-exempt organizations affected by the
         new law and initiated outreach efforts.10 Also in Calendar Year 2007, the
         TE/GE Division began issuing news releases, conducting training webcasts, issuing
         e-mails, and including information on its public website to educate the tax-exempt
         community. Third parties were also used to inform organizations about the new filing
         requirements. For example, information was included in a Social Security
         Administration newsletter, various State offices were informed and asked to help educate
         tax-exempt organizations, flyers and posters were developed for use in places like local
         libraries, and tax software companies were asked for their assistance in informing
         tax-exempt organizations of their new filing requirements.
        Educating IRS employees regarding the new law – Postings to the employee website
         and articles in the internal newsletter provided information on the new filing
         requirements. In addition, procedures were developed for implementing the changes for
         different offices affected within the TE/GE Division as well as other IRS functions,
         including the Small Business/Self-Employed and the Wage and Investment Divisions.
        Issuing notices to tax-exempt organizations – Many new notices were developed for
         issuance to tax-exempt organizations. Several new delinquency notices informed
         organizations if the IRS had not received a filing for a particular tax year and cautioned
         them about potential revocation if they did not file for three consecutive years. An
         automatic revocation notice was developed to inform tax-exempt organizations when
         their tax-exempt status was automatically revoked for failure to file a return or notice for
         three consecutive years.
        Developing guidance for organizations whose tax-exempt status was revoked – The
         Exempt Organizations function, in conjunction with Chief Counsel and the Department

10
  Treasury Inspector General for Tax Administration, Ref. No. 2008-10-051, Appropriate Actions Were Taken to
Prepare for the Receipt of New Filing Information From Smaller Tax-Exempt Organizations (Dec. 2007).
                                                                                                       Page 5
                       Appropriate Actions Were Taken to Identify Thousands of
                         Organizations Whose Tax-Exempt Status Had Been
                        Automatically Revoked, but Improvements Are Needed



        of the Treasury, developed detailed guidance for tax-exempt organizations wanting to
        apply for tax-exempt status after being automatically revoked. This included specific
        guidance for organizations wanting to request retroactive reinstatement.
All of these actions helped prepare the tax-exempt community and the IRS for the new process
of identifying and informing organizations that their tax-exempt status had been automatically
revoked.

Almost 25,000 tax-exempt organizations may not have received reminders to file
prior to revocation
Although the TE/GE Division developed new delinquency notices to remind tax-exempt
organizations to file or risk revocation, not all organizations that failed to file a return or notice
for a particular tax year received one. The IRS assigns filing requirements to each taxpayer’s
account so it can identify which returns should be filed each year by the taxpayer. A computer
program produces delinquency notices by identifying
tax-exempt organizations that have filing requirements
on their accounts but have not filed a return or notice.      Some tax-exempt organizations
However, some tax-exempt organizations did not have            did not receive warnings to file
filing requirements on their accounts because they            prior  to having their tax-exempt
                                                                        status revoked.
were not required to file a return prior to the Pension
Protection Act of 2006. If these tax-exempt
organizations did not file a return or notice, they would
not receive a delinquency notice due to the lack of
filing requirements on their accounts. About 3,700 of
24,450 tax-exempt organizations that did not receive
delinquency notices due to the lack of filing
requirements had their tax-exempt status revoked
because they did not file a return or notice for
three consecutive years.11
In addition, as part of the one-time relief program offered in July 2010, the IRS published an
At-Risk Listing on its website of tax-exempt organizations that had not filed a return or notice
for Tax Years 2007 and 2008, and their Tax Year 2009 return or notice was due on or after
May 17 through October 15, 2010. These organizations were at risk of losing their tax-exempt
status. However, this list did not include all tax-exempt organizations that were eventually
included in the automatic revocation process. This occurred because the criteria used to develop
the At-Risk Listing was different than the criteria that was later used to identify tax-exempt
organizations that were automatically revoked. More than 9,580 of the approximately

11
  Although these tax-exempt organizations may not have received delinquency notices throughout the three-year
period, they were included in the issuance of the notice in Calendar Year 2007 informing them of the law change,
the new filing requirements, and the risk of revocation.
                                                                                                           Page 6
                        Appropriate Actions Were Taken to Identify Thousands of
                          Organizations Whose Tax-Exempt Status Had Been
                         Automatically Revoked, but Improvements Are Needed



24,450 tax-exempt organizations that did not receive a delinquency notice also may have been
excluded from the At-Risk Listing.12
The lack of filing requirements which prevented the issuance of delinquency notices was
corrected, so this situation should not occur in the future. In addition, the At-Risk Listing was a
one-time publication. Therefore, we are not making any recommendations to correct these
issues.

Generally, the Tax-Exempt Status of Organizations Was Appropriately
Identified as Revoked, but Computer Programming Flaws Were Found
The TE/GE Division correctly identified thousands of organizations whose tax-exempt status
was automatically revoked. More than 279,500 tax-exempt organizations were informed in
June 2011 that they lost their tax-exempt status when the first automatic revocation notices were
issued. However, some organizations were not identified as automatically revoked due to
computer programming flaws. By not identifying all organizations that have been automatically
revoked and publishing a complete list, the TE/GE Division is not fully complying with the
requirements of the Pension Protection Act of 2006 and is treating its customers inconsistently.

Thousands of tax-exempt organizations were appropriately identified and
informed that their tax-exempt status was automatically revoked
Generally, the TE/GE Division appropriately identified organizations that did not file a return or
notice for three consecutive years. We reviewed two random samples of 100 cases each from
different sources and did not find any instances where the IRS inappropriately identified the
tax-exempt status as automatically revoked.
        Our first sample was composed of organizations included on the June 2011 revocation
         list. This list included all the organizations that had their tax-exempt status initially
         revoked. We verified that all 100 organizations met the criteria for revocation and were
         appropriately identified as such.
        Our second sample was from a download of data from the taxpayer database of
         organizations that had their tax-exempt status automatically revoked. We verified that
         100 organizations listed as automatically revoked on the taxpayer database were
         appropriately included on the June 2011 revocation list published on the IRS website.
Although these tax-exempt organizations were identified appropriately as having their
tax-exempt status automatically revoked, some organizations were excluded due to programming
flaws.


12
  Some of the organizations that did not receive a delinquency notice may have filed a return or notice. If so, these
organizations should not have been included on the At-Risk Listing.
                                                                                                              Page 7
                          Appropriate Actions Were Taken to Identify Thousands of
                            Organizations Whose Tax-Exempt Status Had Been
                           Automatically Revoked, but Improvements Are Needed



Programming did not identify all organizations whose tax-exempt status had been
automatically revoked
The TE/GE Division developed the requirements and completed requests for computer
programming changes to identify tax-exempt organizations that met the criteria for revocation.
However, not all tax-exempt organizations that met the requirements for automatic revocation
were identified due to issues with the programming. As a result, the IRS did not correctly
publicize the automatic revocations as required by the law. This meant that the organizations
could still receive tax deductible contributions even though their tax-exempt status had been
automatically revoked.
          Computer programming missed some organizations whose tax-exempt status was
           automatically revoked. We reviewed a random sample of 100 tax-exempt organizations
           from the taxpayer database to determine whether they should have been informed that
           their tax-exempt status had been automatically revoked and, if so, whether the program
           accurately identified them. ***********************1***********************
           **********************************1*************************************
           **********************************1*************************************
           **********************************1*************************************
           **********************************1*************************************
           **********************************1*************************************
           **********************************1*************************************
           **********************1********
           Additional analysis of the taxpayer database identified several more organizations with
           the same status code on their accounts that met the criteria for having their tax-exempt
           status automatically revoked and should have been identified but were not. We
           forwarded this issue to the TE/GE Division’s Business Systems Planning office to
           determine why the computer program did not identify these tax-exempt organizations.
           Their research identified around 35,000 organizations with this status code that had been
           correctly identified by the program. Business System Planning personnel worked with
           the computer programmer and determined that the sequencing of the criteria checks in the
           program for identifying tax-exempt organizations whose tax-exempt status had been
           automatically revoked was causing some organizations with this status code to be
           bypassed. After the program was corrected, more than 15,700 additional organizations
           with this status code were identified and informed that their tax-exempt status had been
           automatically revoked, *************************1***********************
           ********1************.13
           Management Actions: TE/GE Division Business Systems Planning personnel worked
           with the computer programmer to identify the problem and ensured it was corrected

13
     See Appendix IV for further details.
                                                                                             Page 8
                          Appropriate Actions Were Taken to Identify Thousands of
                            Organizations Whose Tax-Exempt Status Had Been
                           Automatically Revoked, but Improvements Are Needed



           during our audit. These organizations are now being properly identified and informed
           that their tax-exempt status has been automatically revoked, if required.
          Some organizations were excluded from programming. Black Lung Trusts are
           tax-exempt organizations required by the Pension Protection Act of 2006 to have their
           tax-exempt status revoked if they fail to file a return or notice for three consecutive years.
           However, the computer programming used to identify organizations whose tax-exempt
           status had been automatically revoked did not include a check for Black Lung Trust
           filings.
           We identified 30 Black Lung Trust organizations on the taxpayer database. Further
           research by an IRS employee determined that 25 of these organizations had not filed a
           return or notice in the last three consecutive years and should have been identified.14
           The IRS has several different taxpayer databases that store return filing information. The
           computer program designed to identify organizations whose tax-exempt status has been
           automatically revoked checks only one of these databases. However, Black Lung Trust
           filings are included on a different database and, as a result, were excluded from the
           automatic revocation programming. Exempt Organizations function management stated
           that a decision was made upfront to focus immediately on the large volume of tax-exempt
           organizations included on the primary database first and, upon perfecting that
           programming, will seek a request to include Black Lung Trust filings in future
           programming updates.
          The TE/GE Division determined that some organizations received erroneous notices
           that their tax-exempt status had been automatically revoked. The initial revocation
           programming checked for tax-exempt organizations that did not file a return or notice for
           Tax Years 2007, 2008, and 2009. However, some newer organizations that were not
           established until Calendar Year 2008 were being erroneously informed that their
           tax-exempt status was automatically revoked even though they were not in existence or
           not required to file a return or notice for Tax Year 2007. As a result, the three-year
           period had not yet elapsed, and these organizations retained their tax-exempt status.
           Management Actions: The IRS corrected these organizations’ accounts on the taxpayer
           database to reflect that the organizations were still tax-exempt and the organizations
           received a second notice informing them that they received the initial revocation notices
           in error. The TE/GE Division identified more than 2,270 tax-exempt organizations that
           were erroneously informed about the automatic revocations. The programming was
           corrected to prevent this from happening in the future.




14
     See Appendix IV for further details.
                                                                                                  Page 9
                          Appropriate Actions Were Taken to Identify Thousands of
                            Organizations Whose Tax-Exempt Status Had Been
                           Automatically Revoked, but Improvements Are Needed



Recommendation
Recommendation 1: The Director, Exempt Organizations, should develop and submit a work
request to move the posting of the Black Lung Trust returns to the database being reviewed for
organizations whose tax-exempt status has been automatically revoked. Once the returns are
moved, the automatic revocation programming should be updated to include a check for Black
Lung Trust organizations.
           Management’s Response: IRS management agreed with the recommendation and
           has submitted a work request to move the postings of the Black Lung Trust returns to the
           database being reviewed for organizations whose tax-exempt status has been
           automatically revoked.

Guidance Provided to Tax-Exempt Organizations Could Be Improved
The Exempt Organizations function developed a new automatic revocation notice for tax-exempt
organizations that have had their tax-exempt status automatically revoked for failing to file a
return or notice for three consecutive years. The notice informs the organizations that their
tax-exempt status was automatically revoked, they are now a taxable entity, and they can reapply
for tax-exempt status. However, the automatic revocation notice does not provide any guidance
for those organizations that believe they were automatically revoked in error or are looking for
detailed guidance on how to reapply for retroactive reinstatement. Incomplete guidance can lead
to taxpayer confusion and, if the organization does not provide all required information for
reapplying for tax-exempt status, could delay the organization from being reinstated as a
tax-exempt entity.
In June 2011, the IRS mailed automatic revocation notices to more than 279,500 tax-exempt
organizations whose tax-exempt status was automatically revoked.15 At the same time, the IRS
also released several guidance documents on its website for those organizations that had their
tax-exempt status automatically revoked:
          Notice 2011-43 – Transitional Relief Under Internal Revenue Code § 6033(j) for
           Small Organizations.
          Notice 2011-44 – Application for Reinstatement and Retroactive Reinstatement for
           Reasonable Cause Under Internal Revenue Code § 6033(j).
          Revenue Procedure 2011-36 – Rulings and Determination Letters.




15
     See Appendix IV for further details.
                                                                                            Page 10
                   Appropriate Actions Were Taken to Identify Thousands of
                     Organizations Whose Tax-Exempt Status Had Been
                    Automatically Revoked, but Improvements Are Needed



However, the notice mailed to organizations whose tax-exempt status was automatically revoked
does not refer the recipients to the above website guidance for additional information. Instead,
the automatic revocation notice refers readers to a particular IRS web page for further guidance
on what to do if the organizations want to reapply for tax-exempt status. The web page referred
to in the automatic revocation notice did not mention this
additional guidance either. In addition, both the notice
and the web page did not mention what tax-exempt                   The automatic revocation
organizations should do if they believe their tax-exempt         notice did not include detailed
                                                                  guidance on how to request
status was automatically revoked in error.                        retroactive reinstatement of
Exempt Organizations function management stated this                tax-exempt status.
occurred because IRS notices have to be developed
months prior to their intended use date to ensure enough
time for the programmers to develop them. The
automatic revocation notice was developed prior to the
approval of the guidance for reapplying for tax-exempt
status and retroactive reinstatement. As a result, the
guidance was not available at the time the notice was
developed to include a reference to it in the notice.
Many small organizations are staffed with volunteers who are not tax experts, so the notices need
to be clear and easy to follow. Tax-exempt organizations that believe their automatic
revocations were in error may not know what to do to resolve the issue and may call the IRS for
guidance. In addition, organizations that do not follow the guidance may experience delays in
the processing of their reapplication for tax-exempt status.
Management Actions: The IRS web page referred to in the automatic revocation notice has been
updated with guidance on what to do if the tax-exempt organization believes its tax-exempt
status was automatically revoked in error. In addition, links to the retroactive reinstatement
guidance have also been added to the IRS web page referred to in the automatic revocation
notice. Both actions were taken during our audit.
The IRS also posted a Fact Sheet to its website entitled Automatic Revocation of Tax-Exempt
Status. It outlines the effects of losing tax-exempt status and the process to follow when
requesting retroactive reinstatement. However, the Fact Sheet had the incorrect deadline for
requesting retroactive reinstatement for small organizations. This may cause confusion for those
organizations wanting to file for retroactive reinstatement.
Notice 2011-43 includes a deadline of December 31, 2012, for retroactive reinstatement. The
Fact Sheet initially included a deadline of December 31, 2011. This could prevent some
organizations from applying for retroactive reinstatement because they thought they missed the
deadline. This error was caused by an oversight on the part of the preparer of the Fact Sheet.


                                                                                         Page 11
                   Appropriate Actions Were Taken to Identify Thousands of
                     Organizations Whose Tax-Exempt Status Had Been
                    Automatically Revoked, but Improvements Are Needed



Management Actions: The Exempt Organizations function corrected the Fact Sheet on the same
day we notified it about the error.

Recommendation
Recommendation 2: Since automatic revocation notices will continue to be sent to
organizations that do not file for three consecutive years, the Director, Exempt Organizations,
should ensure the automatic revocation notice is updated with references to both the guidance for
tax-exempt organizations that believe their tax-exempt status was revoked in error and the
guidance for applying for retroactive reinstatement.
       Management’s Response: IRS management partly agreed with the recommendation.
       In its response, the IRS states that the guidance items we requested be referred to in the
       automatic revocation notice (Notice 2011-43 and Notice 2011-44) are transitory guidance
       items. The IRS does not believe that it would be appropriate to reference them in the
       automatic revocation notice without the ability to update it more frequently than
       programming deadlines allow. However, the automatic revocation notice will be updated
       with a phone number to call if an organization believes it received the notice in error.
       Office of Audit Comment: We agree with the partial implementation of the
       recommendation. Notice 2011-43 will be obsolete on December 31, 2012, before
       changes can be made to the automatic revocation notice. Also, Exempt Organizations
       function management informed us that changes to the retroactive reinstatement guidance
       can occur at any time, which would make Notice 2011-44 obsolete and could cause
       taxpayer confusion.

Some Tax-Exempt Organization Accounts Contain Inaccurate
Information
Addresses of some tax-exempt organizations from their e-Postcard filings are being inaccurately
updated to their IRS computer accounts. In addition, filing requirements on some accounts are
not being removed after tax-exempt organizations have terminated operations. As a result, the
taxpayer database does not include accurate information that can be used by the IRS for future
contacts with the organizations.

Inaccurate address information from e-Postcards is being updated to the
IRS’s taxpayer database
IRS computer accounts are being updated with inaccurate address information from tax-exempt
organization e-Postcard filings. As a result, the IRS may be unable to contact a tax-exempt
organization when necessary.


                                                                                         Page 12
                          Appropriate Actions Were Taken to Identify Thousands of
                            Organizations Whose Tax-Exempt Status Had Been
                           Automatically Revoked, but Improvements Are Needed



The Pension Protection Act of 2006 requires organizations to file their e-Postcards electronically
with the IRS. The IRS contracted with an outside organization to develop and maintain a
website for tax-exempt organizations to electronically file their e-Postcards. The e-Postcard
includes two fields for the tax-exempt organization to use for providing its mailing address. The
information from the first mailing address field is updated to the tax-exempt organization’s
IRS account if it is different than the existing address on the account. The second address field is
not used by the IRS.
Our analysis of the e-Postcard filings database16 identified
495 filings17 where only numerals were input to the
first mailing address field of the e-Postcard. Many of these     Inaccurate address information
                                                                    is being uploaded to the
organizations input the numeral of their address in the
                                                                    IRS’s taxpayer database.
first mailing address field and the street name in the
second mailing address field. For example, a “12” would
be input in the first mailing address field and “Smith
Street” would be input in the second mailing address field.
Only the “12” from the first address field is updated to the
IRS’s account as the tax-exempt organization’s mailing
address. This numeral-only update results in incomplete
address information on the taxpayer database.
Inaccurate address information increases the likelihood of
the IRS being unable to contact a tax-exempt organization when necessary and could result in an
increase in undeliverable mail for the IRS, wasting limited resources.
Management Actions: During our audit, the Exempt Organizations function instructed the
outside contractor to remove the second mailing address field from the e-Postcard filing website
to prevent organizations from splitting their addresses and causing inaccurate updates to their
IRS accounts. The contractor confirmed that the second address field had been removed.

Inaccurate filing requirements on tax-exempt organization accounts have resulted
from the automatic revocation process
The accounts of some organizations whose tax-exempt status was automatically revoked include
inaccurate return filing requirements. This could result in the IRS attempting to obtain tax
returns in the future from organizations that are not required to file.




16
     As of May 24, 2011.
17
     See Appendix IV for further details.
                                                                                           Page 13
                          Appropriate Actions Were Taken to Identify Thousands of
                            Organizations Whose Tax-Exempt Status Had Been
                           Automatically Revoked, but Improvements Are Needed



When the tax-exempt status of an organization is
automatically revoked for not filing a return or notice for
three consecutive years, the organization’s computer              Inaccurate filing requirements
account is updated to show it is now a taxable                      may cause the IRS to waste
organization instead of a tax-exempt organization. In at           resources on trying to obtain
                                                                      returns from terminated
least 13 cases,18 the computer account was later updated                   organizations.
to indicate that the organization had terminated
operations and no longer exists. However, the taxable
filing requirements were not removed when the
organization terminated operations. As a result, the
IRS’s taxpayer database still indicates the organization
is required to file a return even when it is no longer in
existence. Since the accounts still have filing
requirements, the IRS will try and obtain the returns
from the organizations that have terminated operations.
This results in wasted resources for the IRS.
The Exempt Organizations function determined that some organizations are filing a “final”
return after their tax-exempt status has been automatically revoked. This means that the
organization files a tax-exempt information return with the IRS and checks the box indicating
that this is the last return for the organization. A “final” return causes the computer account to
be updated to terminated status systemically. However, a change to terminated status does not
remove all existing filing requirements.

Recommendation
Recommendation 3: The Director, Exempt Organizations, should develop and submit a work
request to remove filing requirements on former tax-exempt organization accounts that have
been updated from revoked to terminated status.
           Management’s Response: IRS management agreed with our recommendation and
           provided an alternate corrective action. The Director, Exempt Organizations, submitted a
           work request to not allow the account of an organization that has been automatically
           revoked to be further updated to show that it has been terminated.
           Office of Audit Comment: We discussed the alternate corrective action with Exempt
           Organizations function management. Once an organization’s tax-exempt status has been
           automatically revoked, it cannot file an additional return as a tax-exempt organization,
           even if it indicates termination of operations. The taxable filing requirements updated to
           the organization’s account cannot be removed due to a tax-exempt return filed after


18
     See Appendix IV for further details.
                                                                                              Page 14
            Appropriate Actions Were Taken to Identify Thousands of
              Organizations Whose Tax-Exempt Status Had Been
             Automatically Revoked, but Improvements Are Needed



automatic revocation. Since a tax-exempt return should not be filed by an organization
after its tax-exempt status is automatically revoked, we agree with the alternate corrective
action. However, we suggest that the Exempt Organizations function work with the
Small Business/Self-Employed Division to develop guidance for organizations that have
been revoked but want to inform the IRS that they have terminated operations and may
no longer need filing requirements on their tax accounts.




                                                                                    Page 15
                       Appropriate Actions Were Taken to Identify Thousands of
                         Organizations Whose Tax-Exempt Status Had Been
                        Automatically Revoked, but Improvements Are Needed



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Exempt Organizations function’s readiness
for and implementation of the provisions of the Pension Protection Act of 20061 related to the
automatic revocation of an organization’s tax-exempt status for not filing an annual return or
notice for three consecutive years. We used computer-processed data to select some of our
samples and verified the data by performing validity checks to ensure the data were accurate. To
accomplish our objective, we:
I.      Determined whether the Exempt Organizations function adequately prepared for the
        automatic revocation of the tax-exempt status of organizations that did not file an annual
        return or notice for three consecutive years.
        A. Interviewed Exempt Organizations function and Business Systems Planning
           personnel and determined actions taken to prepare for the automatic revocations and
           how the revocations may affect other operating divisions/functional offices.
        B. Obtained and reviewed documentation for programming changes related to the
           automatic revocations and ensured all necessary actions were taken, including
           updates to organizations’ accounts to indicate revocation of tax-exempt status and
           issuance of notices to inform organizations of the revocations.
II.     Determined whether the Exempt Organizations function accurately identified tax-exempt
        organizations that did not file for three consecutive years, updated their accounts on
        IRS computer systems, and notified them of their revocations.
        A. Obtained a Master File2 extract of tax-exempt organizations with a Form 990 series3
           filing requirement and determined whether they filed any returns or notices for
           Tax Years 2007, 2008, or 2009 and, if not, whether accounts were updated and
           revocation notices issued.
             1. Selected a random sample4 of 100 tax-exempt organizations from a universe of
                1,263,758 organizations from our Master File extract to ensure programming
                changes identified in Step I.B. were properly implemented and were working as
                intended. We used a random sample to ensure each account had an equal chance

1
  Pub. L. No. 109-280, 120 Stat. 780.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  Form 990 series includes returns filed by tax-exempt organizations.
4
  We did not use a statistical sample because we did not plan to project the results.
                                                                                                           Page 16
                        Appropriate Actions Were Taken to Identify Thousands of
                          Organizations Whose Tax-Exempt Status Had Been
                         Automatically Revoked, but Improvements Are Needed



                  of being selected, which enabled us to obtain sufficient evidence to support our
                  results.
             2. Determined whether the tax-exempt organizations filed a return or notice during
                the last three consecutive years. If not, we verified that the Master File accounts
                had been updated to revoked status and revocation notices had been issued. This
                was completed, in part, to validate the Master File accounts.
         B. Obtained a list from the Exempt Organizations function of tax-exempt organizations
            that had their tax-exempt status automatically revoked and verified that the
            revocations were appropriate.
             1. Selected a random sample5 of 100 tax-exempt organizations from a universe of
                279,593 organizations on the list to verify their filing histories and determine if
                the revocation was appropriate. We used a random sample to ensure each account
                had an equal chance of being selected, which enabled us to obtain sufficient
                evidence to support our results.
             2. Verified that the tax-exempt organizations had filing requirements and did not file
                returns or notices for three consecutive years.
             3. Verified that the tax-exempt status of organizations that did not file for
                three consecutive years had been revoked, the filing requirements had been
                updated, and revocation notices had been issued.
         C. Obtained a Master File extract of tax-exempt organizations that had their tax-exempt
            status revoked and determined whether the revocations were appropriate.
             1. Selected a random sample6 of 100 tax-exempt organizations from a universe of
                279,529 organizations that had their tax-exempt status revoked to ensure they
                were on the list of organizations obtained in Step II.B. that should have been
                revoked.7 We used a random sample to ensure each account had an equal chance
                of being selected, which enabled us to obtain sufficient evidence to support our
                results.
             2. Verified that tax-exempt organizations that had their tax-exempt status revoked
                are on the list of organizations that should have been revoked. This was
                completed, in part, to validate the revocation list and the Master File accounts.




5
  We did not use a statistical sample because we did not plan to project the results.
6
  We did not use a statistical sample because we did not plan to project the results.
7
  This universe is slightly lower than the Exempt Organizations function list in Step II.B. because it covers a
different timeframe.
                                                                                                              Page 17
                   Appropriate Actions Were Taken to Identify Thousands of
                     Organizations Whose Tax-Exempt Status Had Been
                    Automatically Revoked, but Improvements Are Needed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: TE/GE Division policies, procedures, and
practices for planning, managing, and identifying tax-exempt organizations that did not file a
return or notice for three consecutive years. We evaluated these controls by interviewing
personnel, reviewing programming documentation, and reviewing random samples of
organizations whose tax-exempt status was automatically revoked.




                                                                                         Page 18
                  Appropriate Actions Were Taken to Identify Thousands of
                    Organizations Whose Tax-Exempt Status Had Been
                   Automatically Revoked, but Improvements Are Needed



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Cheryl J. Medina, Lead Auditor
Carol A. Rowland, Auditor
Brian W. Hattery, Information Technology Specialist




                                                                                  Page 19
                  Appropriate Actions Were Taken to Identify Thousands of
                    Organizations Whose Tax-Exempt Status Had Been
                   Automatically Revoked, but Improvements Are Needed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 20
                    Appropriate Actions Were Taken to Identify Thousands of
                      Organizations Whose Tax-Exempt Status Had Been
                     Automatically Revoked, but Improvements Are Needed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 15,701 taxpayer accounts (see page 7).

Methodology Used to Measure the Reported Benefit:
Tax-exempt organizations with certain coding on their IRS computer accounts were excluded
from being identified as having their tax-exempt status automatically revoked. During our case
reviews, *********************************1************************************
****************************************1**********************. Further research
found several other organizations that were not correctly identified. TE/GE Division Business
System Planning personnel worked with the programmer and found the sequencing of the checks
for tax-exempt organizations was bypassing some organizations whose tax-exempt status had
been automatically revoked. After the programming was corrected, 15,701 tax-exempt
organizations with the same coding were identified and informed their tax-exempt status had
been automatically revoked.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; 25 taxpayer accounts (see page 7).

Methodology Used to Measure the Reported Benefit:
Black Lung Trust tax-exempt organizations were excluded from the automatic revocation
process. Analysis of the taxpayer database identified 30 Black Lung Trusts in the IRS’s records.
However, Black Lung Trust returns are posted to a different database than most tax-exempt
organizations. Further research completed by an IRS employee of this second database found
that 25 of the 30 Black Lung Trusts had not filed a return or notice for three consecutive years
and should have been identified and informed their tax-exempt status had been automatically
revoked.




                                                                                          Page 21
                       Appropriate Actions Were Taken to Identify Thousands of
                         Organizations Whose Tax-Exempt Status Had Been
                        Automatically Revoked, but Improvements Are Needed



Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 279,593 taxpayers (see page 10).

Methodology Used to Measure the Reported Benefit:
The TE/GE Division issued 279,593 automatic revocation notices on June 8, 2011. On the same
day, several guidance documents for those organizations that wanted to apply for retroactive
reinstatement of their tax-exempt status were also made available on the IRS’s public website.
However, neither the revocation notice nor the website referred to in the notice directed the
organizations to the retroactive reinstatement guidance. Many small organizations are staffed
with volunteers who are not tax experts, so the notices need to be clear and easy to follow.
Tax-exempt organizations that believe their revocations were in error may not know what to do
to resolve the issue and may call the IRS for guidance. In addition, organizations that do not
follow the guidance may experience delays in the processing of their applications for tax-exempt
status.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; 495 taxpayer accounts (see page 12).

Methodology Used to Measure the Reported Benefit:
The Pension Protection Act of 20061 requires small tax-exempt organizations to file a notice with
the IRS electronically. The filings include two fields for the mailing address of the tax-exempt
organization. However, only the first address field is updated to the taxpayer’s account on the
IRS’s Master File2 database. Our analysis of the e-Postcard database3 identified 495 filings
where only numerals were input to the first mailing address field of the e-Postcard. Many of
these organizations input the numeral of their address in the first mailing address field and the
street name in the second mailing address field. For example, a “12” would be input in the first
mailing address field and “Smith Street” would be input in the second mailing address field.
Only the “12” from the first address field is updated to the IRS’s account as the tax-exempt
organization’s mailing address. This numeral-only update results in incomplete address
information in the IRS’s computer accounts. Inaccurate address information increases the
likelihood of the IRS being unable to contact a taxpayer when necessary and could result in an
increase in undeliverable mail for the IRS, wasting limited resources.




1
  Pub. L. No. 109-280, 120 Stat. 780.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  As of May 24, 2011.
                                                                                                           Page 22
                    Appropriate Actions Were Taken to Identify Thousands of
                      Organizations Whose Tax-Exempt Status Had Been
                     Automatically Revoked, but Improvements Are Needed



Type and Value of Outcome Measure:
   Reliability of Information – Actual; 13 taxpayer accounts (see page 12).

Methodology Used to Measure the Reported Benefit:
When the tax-exempt status of an organization is automatically revoked for not filing a return or
notice for three consecutive years, the organization’s computer account is updated to show it is
now a taxable organization instead of a tax-exempt organization. In at least 13 cases, the
computer account was later updated to indicate that the organization had terminated operations
and no longer exists. However, the taxable filing requirements were not removed when the
organization terminated operations. As a result, the IRS’s taxpayer database still indicates the
organization is required to file a return even when it is no longer in existence. Since the accounts
still have filing requirements, the IRS will try and obtain the returns from the organizations that
have terminated operations. This results in wasted resources for the IRS.




                                                                                           Page 23
                       Appropriate Actions Were Taken to Identify Thousands of
                         Organizations Whose Tax-Exempt Status Had Been
                        Automatically Revoked, but Improvements Are Needed



                                                                                                 Appendix V

        Outreach Efforts to Educate Tax-Exempt
     Organizations on Their New Filing Requirements

The IRS conducted extensive outreach to educate the tax-exempt community about the new
filing requirements in the Pension Protection Act of 2006.1 The chart below provides a sample
of the efforts the IRS took to publicize the new filing requirements since the law was enacted on
August 17, 2006.

      Date               Communication Vehicle                                      Details
    March 2007        Tax Talk Today Webcast                 Training on the Pension Protection Act of 2006,
                                                             including new filing requirements.
    April 2007        EO2 Update (e-mail)                    E-mail to subscribers of communications about
                                                             the Exempt Organizations function announcing
                                                             new filing requirements.
    April 2007        Social Security Administration/        Newsletter that announced new filing
                      IRS Reporter                           requirements.
    April 2007        IRS Public Website                     Provided information and updates about the
                                                             Pension Protection Act of 2006, including
                                                             Frequently Asked Questions.
    May 2007          Software Developers Conference         Provided information on new filing requirements.
    June 2007         State Charity Regulators,              Discussed new filing requirements and how they
                      Attorney Generals                      could help communicate the requirements.
    June 2007         Taxpayer Advocate Service              The Exempt Organizations function asked for
                                                             help from the Taxpayer Advocate Service in
                                                             promoting e-Postcard filing.
    July 2007         IRS News Release                       Announced new filing requirements.3
    July 2007         Information Notice                     Issued notices to tax-exempt organizations
                                                             advising them of their new filing requirements.



1
  Pub. L. No. 109-280, 120 Stat. 780.
2
  Exempt Organizations.
3
  The media can use IRS news releases to write articles or publicize the IRS news release, which helps inform
tax-exempt organizations of changes in the tax-exempt law.
                                                                                                          Page 24
                      Appropriate Actions Were Taken to Identify Thousands of
                        Organizations Whose Tax-Exempt Status Had Been
                       Automatically Revoked, but Improvements Are Needed



      Date             Communication Vehicle                                  Details
    July 2007        IRS Tax Forums                      Information on new filing requirements was
                                                         discussed at workshop and seminar.
    July 2007        State Offices                       Provided information to share with tax-exempt
                                                         organizations.
  August 2007        IRS Marketing Council               Developed radio spot to inform the tax-exempt
                                                         community about new filing requirements.
  October 2007       Small and Mid-Size Exempt           New filing requirements were discussed in
                     Organization Workshops              training.
  October 2007       State/County/City Associations      Provided information to share with tax-exempt
                                                         organizations.
  January 2008       National Tax Forums                 Developed television spot informing tax-exempt
                                                         community about new filing requirements.
  January 2008       EO Update (e-mail)                  Included e-Postcard reminder.
 February 2008       EO Update (e-mail)                  Announced launch of e-Postcard filing website.
   March 2008        Conference Call With Software       Discussed high error rate of filings and provided
                     Developers                          additional guidance.
  August 2008        Contractor                          Hired contractor to help locate and communicate
                                                         with small tax-exempt organizations.
 December 2009       Small and Mid-Size Exempt           Training where new filing requirements were
                     Organization Workshops              discussed.
 December 2009       Feature Article                     Distributed to small, local newspapers to educate
                                                         the tax-exempt community on the new filing
                                                         requirements.
  January 2010       National Public Liaison             Asked for assistance in communicating new
                                                         requirements.
   March 2010        National Association of Enrolled    Requested article in Association’s newsletter on
                     Agents                              new filing requirements.
   March 2010        American Institute of Certified     Requested article in Institute’s newsletter on new
                     Public Accountants                  filing requirements.
   April 2010        Audio Spot for Podcast              Also translated into Spanish.
    July 2010        IRS Public Website                  Posted information on one-time relief program
                                                         and At-Risk Listing.
Source: IRS e-Postcard communication plans and IRS website.



                                                                                                  Page 25
                     Appropriate Actions Were Taken to Identify Thousands of
                       Organizations Whose Tax-Exempt Status Had Been
                      Automatically Revoked, but Improvements Are Needed



                                                                                         Appendix VI

           Timeline of Events Leading Up to the Initial
                 Automatic Revocation Notices

On May 17, 2010, the first three-year period requiring potential automatic revocation for not
filing a return or notice for three consecutive years ended. The first automatic revocation notices
were issued on June 8, 2011. Below is a timeline of events that led up to the first revocation
notices.
    Date                                            Actions/Decisions
May 17, 2010     Deadline for filing a return or notice to avoid automatic revocation of tax-exempt status if
                 an extension of time to file is not requested. The Exempt Organizations function decided
                 to postpone informing any organizations of automatic revocation because tax-exempt
                 organizations are allowed to request two three-month extensions of time to file their
                 returns. Adding six months to the original due date brings the filing due date to
                 November 15, 2010.
December 2010 IRS computer systems run programs on a certain schedule. Programs are not run for most
              of December each year to allow time for necessary changes to the programs to be made
              for the upcoming tax season. As a result, the program run to identify organizations whose
              tax-exempt status had been automatically revoked could not take place until January 2011.
 January 2011    IRS testing of the automatic revocation programming found errors that needed to be
                 corrected prior to issuing revocation notices. The program misidentified tax-exempt
                 organizations as automatically revoked.
February 2011    Programmers corrected the problem identified in January 2011.
February 2011    Exempt Organizations function management postponed the automatic revocation program
                 run until March 2011 because they did not want the first revocation notices issued so close
                 to the annual tax filing deadline of April 15, which could cause long wait times on IRS
                 customer service telephone lines at the end of the filing season. This meant the revocation
                 notices would be produced in March 2011 and issued in May 2011.
 March 2011      Discussions with senior leadership were held on the scope of the retroactive reinstatement
                 guidance being prepared for those tax-exempt organizations wanting to reapply for
                 tax-exempt status after being revoked. The IRS decided to develop a streamlined
                 retroactive reinstatement process for small organizations seeking reinstatement.
  June 2011      IRS Chief Counsel, the Department of the Treasury, and the IRS Commissioner approved
                 the retroactive reinstatement guidance.
 June 8, 2011    The first automatic revocation notices were issued.
Source: Exempt Organizations function management.


                                                                                                   Page 26
     Appropriate Actions Were Taken to Identify Thousands of
       Organizations Whose Tax-Exempt Status Had Been
      Automatically Revoked, but Improvements Are Needed



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 27
Appropriate Actions Were Taken to Identify Thousands of
  Organizations Whose Tax-Exempt Status Had Been
 Automatically Revoked, but Improvements Are Needed




                                                     Page 28
Appropriate Actions Were Taken to Identify Thousands of
  Organizations Whose Tax-Exempt Status Had Been
 Automatically Revoked, but Improvements Are Needed




                                                     Page 29
Appropriate Actions Were Taken to Identify Thousands of
  Organizations Whose Tax-Exempt Status Had Been
 Automatically Revoked, but Improvements Are Needed




                                                     Page 30
